                   AUDIT REPORT

             Audit of NRC’s Full-Time Telework Program


                    OIG-14-A-05 December 11, 2013




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

           http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                   December 11, 2013



MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S FULL-TIME TELEWORK PROGRAM
                            (OIG-14-A-05)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Full-Time Telework Program.

The report presents the results of the subject audit. Agency comments provided at the
November 22, 2013, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Eric Rivera, Team Leader, Financial and Administrative Audit Team, at
415-7032.

Attachment: As stated

cc:    R. Mitchell, OEDO
       K. Brock, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
                                                                 Audit of NRC’s Full-Time Telework Program




      EXECUTIVE SUMMARY


          BACKGROUND

          The Telework Enhancement Act of 2010

                  The Telework Enhancement Act of 2010 (the Telework Act), 1 was enacted
                  into law with the goal of ensuring that Federal agencies more effectively
                  integrate telework into their management plans and agency cultures. The
                  Telework Act defines telework as a work-flexibility arrangement under
                  which an employee performs the duties and responsibilities of his or her
                  position from an approved worksite other than the location from which the
                  employee would otherwise work. A full-time teleworker is an employee
                  who works 90 percent 2 or more of the time from an alternate worksite,
                  generally their personal residence.

                  The Telework Act requires the head of each executive agency to ensure
                  that employees eligible to telework and managers of teleworking
                  employees receive training on telework before the employee enters into a
                  written telework agreement. However, an employee may be exempted
                  from the training requirement by the agency head.

          Program Responsibilities


                  The Work Life and Benefits Branch within the Nuclear Regulatory
                  Commission’s (NRC) Office of the Chief Human Capital Officer (OCHCO)
                  develops, coordinates, and implements work-life and benefits policies,
                  including full-time telework. Annual full-time equivalent usage associated
                  with the administration of the agency's full-time telework program for fiscal
                  years 2013-2014 is less than one full-time equivalent (.26) per year. As of
                  May 9, 2013, NRC had 3,832 total staff with 45 employees engaged in
                  full-time telework.




1
    Enacted as Public Law 111-292; signed into law on December 9, 2010.
2
    Based on an 80-hour biweekly pay period.

                                                    i
                                               Audit of NRC’s Full-Time Telework Program




OBJECTIVES

     The audit objectives were to determine (1) if NRC’s full-time telework
     program complies with applicable laws and regulations, and (2) the
     adequacy of internal controls over the program.

RESULTS IN BRIEF

     While NRC’s full-time telework program provides a benefit to the agency
     and its employees, the Office of the Inspector General (OIG) identified an
     area of non-compliance with the Telework Act and an internal control
     weakness. Specifically:

        •   The agency is not fully compliant with training requirements.

        •   Recordkeeping internal controls need improvement.

     OIG’s findings and recommendations aim to improve the agency’s
     compliance and internal controls over the full-time telework program.

RECOMMENDATIONS

     This report makes recommendations to improve the compliance and
     internal controls over the full-time telework program. A list of these
     recommendations appears on page 14 of this report.

AGENCY COMMENTS

     OIG met with NRC management officials and staff at a
     November 22, 2013, exit conference, at which time the agency
     provided informal comments to the draft report. The informal
     comments were incorporated into the report as appropriate. Agency
     management stated their agreement with the findings and
     recommendations and opted not to provide formal comments for
     inclusion in this final report.




                                   ii
                                       Audit of NRC’s Full-Time Telework Program




ABBREVIATIONS AND ACRONYMS


      GAO         Government Accountability Office

      NRC         Nuclear Regulatory Commission

      OCHCO       Office of the Chief Human Capital Officer

      OIG         Office of the Inspector General

      OPM         Office of Personnel Management




                           iii
                                                                  Audit of NRC’s Full-Time Telework Program



TABLE OF CONTENTS


        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iii

        I.      BACKGROUND .............................................................................. 1

        II.     OBJECTIVES .................................................................................. 4

        III.    FINDINGS ....................................................................................... 5

                A. AGENCY IS NOT FULLY COMPLIANT WITH
                   TRAINING REQUIREMENTS .................................................... 5

                B. RECORDKEEPING INTERNAL CONTROLS
                   NEED IMPROVEMENT ............................................................ 9

        IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 14

        V.      AGENCY COMMENTS ................................................................. 15


        APPENDIX

                OBJECTIVES, SCOPE, AND METHODOLOGY........................... 16




                                                 iv
                                                                 Audit of NRC’s Full-Time Telework Program




I.        BACKGROUND

          The Telework Enhancement Act of 2010

                  The Telework Enhancement Act of 2010 (the Telework Act), 3 was enacted
                  into law with the goal of ensuring that Federal agencies more effectively
                  integrate telework into their management plans and agency cultures. The
                  Telework Act defines telework as a work-flexibility arrangement under
                  which an employee performs the duties and responsibilities of his or her
                  position from an approved worksite other than the location from which the
                  employee would otherwise work. A full-time teleworker is an employee
                  who works 90 percent 4 or more of the time from an alternate worksite,
                  generally their personal residence.

                  Figure 1: NRC Full-Time Teleworkers’ Residential Work Sites




                                        Source: OIG photographs taken during site visits.




3
    Enacted as Public Law 111-292; signed into law on December 9, 2010.
4
    Based on an 80-hour biweekly pay period.
                                                    1
                                                 Audit of NRC’s Full-Time Telework Program



     Full-time teleworkers are required to change their official worksite to the
     telework location. The Office of Personnel Management Guide to
     Telework in the Federal Government recommends that agencies provide a
     self-certification safety checklist to telework employees as a guide when
     preparing the alternate worksite for telework.

     The Telework Act establishes requirements for agencies when
     implementing their telework policies. The head of each executive agency
     needs to establish and implement a policy under which employees shall
     be authorized to telework. Also, employees must enter into written
     agreements with their agencies before participating in telework.
     Moreover, the head of each executive agency must ensure that
     employees eligible to telework and managers of teleworking employees
     receive training on telework before the employee enters into a written
     telework agreement. However, an employee may be exempted from the
     training requirement by the agency head.

     With regard to program implementation, each agency’s policies should
     identify whether full-time telework arrangements are allowable in the
     agency and, if so, what aspects of the employment arrangement could
     potentially change if an employee teleworks full-time (e.g., consequences
     to locality pay, benefits, and travel).

Program Responsibilities

     The Work Life and Benefits Branch within the Nuclear Regulatory
     Commission’s (NRC) Office of the Chief Human Capital Officer (OCHCO)
     develops, coordinates, and implements work-life and benefits policies,
     including full-time telework, and is responsible for some of the following
     related activities: (1) retaining a record of all agency full-time teleworkers;
     (2) disseminating full-time telework information to office directors, regional
     administrators, and staff; (3) providing day-to-day guidance for employees
     about full-time telework policies; (4) reviewing draft full-time telework
     documents and providing guidance and edits to staff prior to formal
     concurrence; and (5) coordinating with other offices to obtain concurrence
     on full-time telework agreements.




                                    2
                                                                  Audit of NRC’s Full-Time Telework Program



                  Also, there is an agency telework coordinator in OCHCO who (1) serves
                  as agency liaison with the Office of Personnel Management and other
                  Federal agencies on the full-time telework program, (2) administers the
                  program through the NRC office/regional telework coordinators,
                  (3) advises management and participants about the full-time telework
                  program, (4) monitors the overall progress of the full-time telework
                  program, and (5) develops and updates training for the full-time telework
                  program.

                  Annual full-time equivalent usage associated with the administration of the
                  agency's full-time telework program for fiscal years 2013-2014 is less than
                  one full-time equivalent (.26) per year. As of May 9, 2013, NRC had 3,832
                  total staff with 45 employees engaged in full-time telework. There were 41
                  managers who supervised the full-time teleworkers. 5 The full-time
                  teleworker locations are shown in Figure 2.




5
    There are four managers who each supervise two full-time teleworkers.
                                                     3
                                                                 Audit of NRC’s Full-Time Telework Program




                      Figure 2: NRC Full-Time Teleworker Locations 6




                                                                               Source: OIG generated.



II.     OBJECTIVES

                The audit objectives were to determine (1) if NRC’s full-time telework
                program complies with applicable laws and regulations, and (2) the
                adequacy of internal controls over the program. The report appendix
                contains information on the audit scope and methodology.


6
 NRC also has one full-time teleworker in Oxford, England, and another full-time teleworker in San Juan,
Puerto Rico.
                                                   4
                                                             Audit of NRC’s Full-Time Telework Program




III.      FINDINGS

                  While NRC’s full-time telework program provides a benefit to the agency
                  and its employees, the Office of the Inspector General (OIG) identified an
                  area of non-compliance with the Telework Act and an internal control
                  weakness. Specifically:

                      •   The agency is not fully compliant with training requirements.

                      •   Recordkeeping internal controls need improvement.

                  OIG’s findings and recommendations aim to improve the agency’s
                  compliance and internal controls over the full-time telework program.

         A. Agency Is Not Fully Compliant With Training Requirements

                  According to the Telework Act, teleworking employees and their managers
                  must be trained before telework begins unless there is an exemption from
                  the head of the agency. However, NRC is not in full compliance with
                  training requirements in the Telework Act because (1) full-time teleworkers
                  and their managers were not required by the agency to complete
                  mandatory training, (2) the head of the agency did not issue training
                  exemptions, and (3) the agency does not have adequate policy and
                  procedures related to telework training. As a result, staff may not fully
                  understand the telework program and, subsequently, there may be an
                  increased potential for fraud, waste, and abuse.

                  Training Requirements Under the Telework Act

                  According to the Telework Act, 7 the head of each executive agency shall
                  ensure that a telework training program is provided to (1) employees
                  eligible to participate in the agency’s telework program and (2) all
                  managers of teleworkers. In addition, the Telework Act 8 provides that the
                  head of each executive agency shall ensure that an eligible employee has
                  successfully completed the telework training before that employee enters



7
    § 6503(a)(1)(A)(B).
8
    § 6503(a)(2).
                                                 5
                                                                Audit of NRC’s Full-Time Telework Program



               into a written telework agreement. Finally, an employee may be exempted
               from the training requirement upon the agency head’s determination that
               training is unnecessary because the employee is already teleworking
               under an arrangement in effect before the date of enactment of the
               Telework Act. 9

               Agency Not Fully Compliant With Training Requirements

               The agency did not fully comply with the training requirements of the
               Telework Act. OIG obtained a list from NRC’s iLearn Learning
               Management System of all employees who completed telework training,
               and compared it to the list of full-time teleworkers as of May 9, 2013.
               OIG’s analysis (illustrated in the following table) determined that a
               significant majority of full-time teleworkers and managers of full-time
               teleworkers had not completed the required training.


                      OIG Analysis of Completed Telework Training

                                              Training  Training Not       Percentage
                                              Completed Completed    Total Not Trained

     Full-Time Teleworkers                        12               33           45          73%

     Managers of Full-Time Teleworkers             8               33           41          80%
                                                       Source: OIG analysis of agency training data.



               In addition, 10 of 15 employees who had a full-time telework agreement in
               effect before the enactment of the Telework Act, 10 and 10 of 15 managers
               of these full-time teleworkers, 11 did not take the required training and did
               not obtain an exemption from the head of the agency.




9
  § 6503(a)(4)(b).
10
   The Telework Enhancement Act of 2010 was enacted on December 9, 2010.
11
   Managers on record in the agency’s full-time telework files OIG reviewed.
                                                  6
                                                              Audit of NRC’s Full-Time Telework Program



                 Lack of Agency Action To Comply With Training Requirements

                 NRC is not fully compliant because (1) full-time teleworkers and their
                 managers were not required by the agency to complete mandatory
                 training, (2) NRC did not request a training exemption from the head of the
                 agency, and (3) the agency does not have adequate procedures to track
                 telework training.

                 NRC did not require telework training for full-time teleworkers and their
                 managers as is specified by the Telework Act. Rather, agency guidance 12
                 only states “it is strongly recommended” that the employee and supervisor
                 take telework training. The agency does not have any other guidance on
                 telework training. OCHCO officials confirmed that currently NRC does not
                 require telework training, but assured OIG that in the future it will be made
                 mandatory for all full-time teleworkers and their managers.

                 NRC did not request a training exemption from the head of the agency for
                 those full-time teleworkers and their managers who had an agreement in
                 place prior to the enactment of the Telework Act. OCHCO did not provide
                 an explanation of why they did not seek an exemption, but agreed to
                 (1) train all full-time teleworkers and their managers or (2) obtain an
                 exemption from the head of the agency.

                 Furthermore, the agency does not have adequate procedures to track
                 telework training. Telework training completion is tracked in the agency’s
                 iLearn Learning Management System and OCHCO’s Telework Data
                 Collection SharePoint Site. However, OCHCO is not effectively using
                 these tools to routinely track telework training completions.

                 Staff May Not Fully Understand the Program

                 Because NRC is not fully compliant with training requirements, staff may
                 not fully understand their responsibilities or the benefits of the full-time
                 telework program. The telework training provides information related to
                 the full-time teleworkers’ and managers’ responsibilities and limitations.
                 Without a proper understanding of the program, there may be an
                 increased potential for fraud, waste, and abuse.



12
     OCHCO telework brochure titled The Telework Program – Be There From Anywhere.
                                                  7
                                         Audit of NRC’s Full-Time Telework Program




Recommendations:

OIG recommends that the Executive Director for Operations:

1. Develop and implement a mandatory policy for full-time telework
   training in accordance with requirements in the Telework Enhancement
   Act of 2010.

2. Require telework training for full-time teleworkers and their managers,
   including those who had telework agreements prior to the enactment of
   the Telework Enhancement Act of 2010, or obtain an exemption from
   the head of the agency.

3. Develop procedures to track telework training on a continual basis.




                             8
                                                           Audit of NRC’s Full-Time Telework Program



         B. Recordkeeping Internal Controls Need Improvement

                 NRC’s full-time telework records are inconsistent and not maintained in
                 accordance with Federal Government standards or existing agency
                 policies and procedures. Federal Government standards state that
                 agencies should create and maintain records that provide evidence of
                 execution of activities and those records should be readily available for
                 examination. In addition, the agency has guidelines for developing a full-
                 time telework package. However, full-time telework records are
                 inconsistent because agency desk procedures are inadequate and the
                 electronic filing system is not fully implemented. As a result, there is
                 increased potential for fraud, waste, and abuse regarding improper
                 execution of full-time telework agreements.

                 Federal Government Standards and Agency Policy

                 The Government Accountability Office (GAO) Standards for Internal
                 Control in the Federal Government 13 states that agencies should create
                 and maintain records that provide evidence of execution of activities. It
                 also states these records should be readily available for examination.

                 OCHCO developed a template to inform managers and potential full-time
                 teleworkers of the information needed to have a full-time telework
                 agreement approved. Along with the telework agreement, potential full-
                 time teleworkers are required to submit to OCHCO the following forms:

                    •   NRC Form 621, Employee Request to Participate in the Telework
                        Program.

                    •   NRC Form 622, Evaluation of Employee Request to Participate in
                        the Telework Program.

                    •   NRC Form 624, U.S. Nuclear Regulatory Commission Telework
                        Program Participation Agreement.

                    •   NRC Form 625, Telework Program Employee Self-Certification
                        Safety Checklist.



13
     GAO/AIMD-00-21.3.1, November 1999.
                                               9
                                                             Audit of NRC’s Full-Time Telework Program

                  Also, a potential full-time teleworker must obtain approval from the Office
                  of Information Services regarding computer security, the Computer
                  Security Office regarding information security, and the Office of
                  Administration regarding drug testing.

                  NRC’s Collective Bargaining Agreement, Article 7, Telework, provides that
                  any fixed schedule telework proposal for more than 3 days per week
                  requires approval from the Chief Human Capital Officer. 14

                  OCHCO officials stated that full-time telework records are maintained by
                  the agency telework coordinator. Currently, the agency is in the process
                  of transitioning from hard copy to electronic files using OCHCO’s Telework
                  Data Collection SharePoint Site.

                  NRC Records Are Inconsistent and Do Not Meet Standards

                  NRC’s full-time telework records are inconsistent and not maintained in
                  accordance with Federal standards and existing agency policies.
                  Specifically, there are:

                       •   Missing full-time telework agreements.

                       •   Full-time telework agreements missing approval from the Chief
                           Human Capital Officer.

                       •   Full-time telework agreements that are not current.

                       •   Full-time telework files missing one or more required items.

                  Moreover, agency full-time teleworkers and their managers do not have
                  access to OCHCO’s Telework Data Collection SharePoint Site.

                  Missing Full-Time Telework Agreements

                  There are full-time telework agreements missing from the agency’s official
                  records. OIG reviewed 44 full-time teleworker files 15 obtained from
                  OCHCO official records. OIG also contacted all agency office directors




14
     Previously, the Director, Office of Human Resources.
15
     As of May 9, 2013.
                                                     10
                                            Audit of NRC’s Full-Time Telework Program

and regional administrators to request the names and locations of all full-
time teleworkers in their respective offices. This exercise resulted in
disclosing that one full-time telework agreement was missing. Neither the
full-time teleworker, nor his supervisor, nor OCHCO could produce a copy
of the approved telework agreement.

In addition, OIG identified two other files without a formal full-time telework
agreement. These two files contained only a memorandum with the
subject, “Request for Flexiplace Exception.” These documents do not
represent a complete full-time telework agreement because they are
missing essential elements such as a description of the work to be
performed and drug testing requirements.

Missing Chief Human Capital Officer Approval

Many full-time teleworker agreements are missing proper approvals. Of
the 44 telework agreements reviewed, 57 percent did not contain approval
from the Chief Human Capital Officer or a designee. One full-time
teleworker did not have a written agreement and, therefore, did not have
any approvals.

Full-time Telework Agreements Not Current

Some full-time telework agreements were out-of-date and did not contain
current information. For example, OIG site visits to 14 full-time
teleworkers revealed:

   •   Three instances where a supervisor change was not reflected in the
       current full-time telework agreement.

   •   Two instances where job responsibility and duty changes were not
       reflected in the current full-time telework agreement.

   •   One instance where a job title change was not reflected in the
       current full-time telework agreement.

   •   Two instances where an address change was not reflected in the
       current full-time telework agreement.




                               11
                                           Audit of NRC’s Full-Time Telework Program

Missing One or More Required Items

OIG’s review of agency full-time telework records revealed that
approximately 23 percent of the full-time teleworker files are missing one
or more required forms or approvals. OIG also identified one full-time
teleworker who did not have any of the required documentation.

Limited Access to OCHCO’s Telework Data Collection SharePoint Site

The agency developed a SharePoint Site to aid in managing its telework
programs. Agency full-time teleworkers and their managers do not have
access to OCHCO’s Telework Data Collection SharePoint Site. The
agency telework coordinator and backup and an OCHCO information
technology representative are the only individuals with access to the
SharePoint full-time telework files. Consequently, if a manager wants to
review a copy of the telework agreement, the current process is to contact
the agency telework coordinator and request a copy.

Procedures Inadequate and Electronic Files Not Fully Implemented

OCHCO does not have adequate desk procedures detailing (1) the
specific documentation that should be included in the telework file, (2)
storage (hardcopy or SharePoint), and (3) how to create, maintain, or
monitor SharePoint files. OCHCO provided a copy of its desk procedures
to OIG, but the procedures did not include sufficient information regarding
full-time telework file recordkeeping.

Additionally, the agency has not completed the implementation of an
electronic filing system for full-time telework files using SharePoint.
Currently, not all full-time teleworker information and documentation is in
this electronic system. For example, some full-time teleworkers’ names
do not appear in SharePoint, while others have information such as their
name and approval date, but no attached approved telework agreement
and relevant documentation. OCHCO officials stated that they are in the
process of completing the transition from hard copy documentation to
electronic records in SharePoint. Furthermore, OCHCO is working to
provide appropriate SharePoint access to designated individuals within
program offices. OIG agrees that these efforts when completed will
greatly benefit the full-time telework program.



                              12
                                            Audit of NRC’s Full-Time Telework Program

Increased Potential for Fraud, Waste, and Abuse

The lack of adequately documented full-time telework agreements
increases the potential for staff to work outside of their authority, thereby
potentially leading to fraud, waste, and abuse. Recordkeeping is a
fundamental internal control for ensuring that only authorized individuals
are approved to engage in full-time telework. By enhancing NRC’s
recordkeeping process, NRC will have more effective internal controls
over the full-time telework program.

Recommendations:

OIG recommends that the Executive Director for Operations:

4. Develop and implement desk procedures for proper recordkeeping of
   full-time telework agreements and related documentation.

5. Complete the transition from hard copy to electronic files for full-time
   teleworkers. These files should include (i) a complete list of current
   full-time teleworkers and (ii) electronic records of all full-time telework
   agreements and related documentation.

6. Develop and implement a process to update the OCHCO Telework
   Data Collection SharePoint Site including, but not limited to, creating,
   maintaining, reviewing, and updating files.

7. Provide OCHCO Telework Data Collection SharePoint Site access to
   full-time teleworkers and their managers as appropriate.




                               13
                                                        Audit of NRC’s Full-Time Telework Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

      OIG recommends that the Executive Director for Operations:

         1. Develop and implement a mandatory policy for full-time telework training
            in accordance with requirements in the Telework Enhancement Act of
            2010.

         2. Require telework training for full-time teleworkers and their managers,
            including those who had telework agreements prior to the enactment of
            the Telework Enhancement Act of 2010, or obtain an exemption from the
            head of the agency.

         3. Develop procedures to track telework training on a continual basis.

         4. Develop and implement desk procedures for proper recordkeeping of full-
            time telework agreements and related documentation.

         5. Complete the transition from hard copy to electronic files for full-time
            teleworkers. These files should include (i) a complete list of current full-
            time teleworkers and (ii) electronic records of all full-time telework
            agreements and related documentation.

         6. Develop and implement a process to update the OCHCO Telework Data
            Collection SharePoint Site including, but not limited to, creating,
            maintaining, reviewing, and updating files.

         7. Provide OCHCO Telework Data Collection SharePoint Site access to full-
            time teleworkers and their managers as appropriate.




                                           14
                                               Audit of NRC’s Full-Time Telework Program



V.   AGENCY COMMENTS


        OIG met with NRC management officials and staff at a November 22,
        2013, exit conference, at which time the agency provided informal
        comments to the draft report. The informal comments were incorporated
        into the report as appropriate. Agency management stated their
        agreement with the findings and recommendations and opted not to
        provide formal comments for inclusion in this final report.




                                   15
                                                  Audit of NRC’s Full-Time Telework Program

                                                                                APPENDIX

OBJECTIVES, SCOPE, AND METHODOLOGY



    OBJECTIVES

        The audit objectives were to determine (1) if NRC’s full-time telework
        program complies with applicable laws and regulations, and (2) the
        adequacy of internal controls over the program.

    SCOPE

        This audit focused on reviewing internal controls over the agency’s full-
        time telework program. Specifically, OIG focused on compliance with
        training requirements and recordkeeping internal controls associated with
        the agency’s 45 full-time teleworkers as of May 9, 2013. We conducted
        this performance audit at NRC headquarters in Rockville, MD, and 14
        telework sites across the United States, from April 2013 through
        September 2013. Internal controls related to the audit objectives were
        reviewed and analyzed. Throughout the audit, auditors were aware of the
        possibility or existence of fraud, waste, or misuse in the program under
        review.

    METHODOLOGY

        To accomplish the audit objectives, OIG reviewed relevant laws,
        regulations, and guidance, including the Telework Enhancement Act of
        2010, the Office of Personnel Management’s (OPM) Guide to Telework in
        the Federal Government, NRC’s input into OPM’s 2012 Call for Telework
        Data, OPM’s Web site: telework.gov, and an OIG staff member’s test
        completion of OPM’s On-line Telework Training for Employees and
        Managers. We also reviewed Office of Management and Budget Circular
        A-123, Management's Responsibility for Internal Control; the Government
        Accountability Office Standards for Internal Control in the Federal
        Government; Article 7, Telework, in the Collective Bargaining Agreement
        between NRC and the National Treasury Employees Union; and a prior
        OIG report titled Audit of NRC's Telework Program, issued June 2010, for
        relevance to this audit.

        OIG also reviewed agency guidance and documents, including NRC
        Operating Procedure for Telework, effective February 11, 2013; NRC’s
        Telework Program Brochure, Be There From Anywhere, October 2009;
                                     16
                                          Audit of NRC’s Full-Time Telework Program



an undated and unsigned document titled Considerations in Approving
Full-time Telework, which includes current authority for approving telework
for more than 3 days per week; NRC’s Drug Free Workplace Plan, dated
August 2007; and required forms to become a full-time teleworker at NRC.

OIG interviewed NRC staff at headquarters to obtain insights on the
agency’s full-time telework program. In addition, OIG made site visits to
Maryland, Idaho, Georgia, North Carolina, and California to interview 14 of
the agency’s 45 full-time teleworkers. OIG also interviewed 5 of the
managers responsible for the 14 full-time teleworkers. The purpose of the
site visits was to assess the teleworkers’ compliance with applicable laws
and regulations, determine challenges and whether the 14 full-time
teleworkers still maintain office space at the agency, and to personally
observe their work area. Finally, OIG interviewed staff at three Federal
agencies to review best practices.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

The audit work was conducted by Eric Rivera, Team Leader; Terri Cooper,
Audit Manager; Michael Steinberg, Senior Auditor; Larry Weglicki, Senior
Auditor; and George Gusack, Student Intern.




                             17
